Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   PROVIDER RELATIONSHIPS 

       AND THE USE OF 

    MAGNETIC RESONANCE 

    UNDER THE MEDICARE 

   PHYSICIAN FEE SCHEDULE





                    Daniel R. Levinson

                     Inspector General 


                     September 2008

                     OEI-01-06-00261

                 Office of Inspector General 

                                      http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                                        S U M M A R Y


                  OBJECTIVE
                  To determine (1) how magnetic resonance (MR) services paid under
                  the Medicare Physician Fee Schedule (MPFS) are provided and
                  (2) whether there is a relationship between utilization levels of
                  services and how they are provided.


                  BACKGROUND
                  Previous Office of Inspector General work documented a more than
                  fourfold increase in MR services paid under the MPFS between 1995
                  and 2005.

                  Medicare divides imaging services into two components: the technical
                  component and the professional component. Medicare may pay
                  separately for each or make a global payment to one provider as
                  payment for both. In certain situations, providers may purchase either
                  component and reassign their Medicare payments to other entities.

                  Each MR service may involve several roles, including the orderer of the
                  service, providers of the technical and professional components, the
                  billing provider, the payee, and equipment lessors and coowners. Each
                  role may be played by the same or multiple parties. When multiple
                  parties work together to provide MR services, they may be connected to
                  one another through medical practice relationships and/or other
                  business relationships.

                  This study relies on analysis of 2005 Medicare Part B claims data and
                  projections of data from a sample of MR services. This study focuses on
                  the provision of the technical component of MR services. It presents
                  data about all MR services and two subgroups of MR services: (1) those
                  ordered by high users of MR and (2) those in which the orderer of the
                  service had a connection to one or more of the parties involved in
                  providing the service (hereafter referred to as connected services). This
                  study did not analyze the appropriateness or medical necessity of MR
                  services.


                  FINDINGS
                  Certain characteristics were common to a majority of magnetic
                  resonance services paid under the Medicare Physician Fee
                  Schedule, regardless of whether they were ordered by high users.
                  Although providers worked together to provide services in a number of


OEI-01-06-00261   P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   i
E X E C U T I V E                         S U            M M A R Y 



                   ways, certain characteristics were common to a majority of services. For
                   example, two-thirds of services were ordered by one of four specialties:
                   internal medicine, orthopedic surgery, family practice, and neurology.
                   Eighty-five percent of services were performed by the entity that was paid
                   by Medicare. Most services were performed by the independent
                   diagnostic testing facility (IDTF), multispecialty group, and diagnostic
                   radiology provider specialties. Finally, MR claims were typically billed
                   globally through a radiologist and had payment reassigned.
                   Connected services were provided differently than services that
                   were not connected. One-quarter of MR services paid under the MPFS
                   in 2005 were connected services, which were associated with high use.
                   Compared to all other services, connected services were more likely to be
                   ordered by orthopedic surgeons. Multispecialty groups performed and
                   were paid for half of connected services, compared to only one-quarter of
                   all other services. The IDTF and diagnostic radiology specialties played a
                   smaller role in connected services compared to all other services. Finally,
                   connected services were more likely than other services to have been
                   billed as technical component only, to have had payment reassigned, and
                   to have been billed through a provider other than a radiologist.


                   CONCLUSION
                   The findings in this report highlight the complex nature of how
                   providers deliver MR paid under the MPFS. The large number of ways
                   that various parties can perform and bill for services reduces the
                   transparency of these transactions. Although the analysis in this report
                   was limited to MR, it is possible that such complexity extends to other
                   types of high-cost imaging paid under the MPFS. The complexity and
                   limited transparency with which these services are provided warrants
                   continued attention to ensure that services are reasonable, necessary,
                   and compliant with Medicare statutes and regulations.


                   AGENCY COMMENTS
                   The Centers for Medicare & Medicaid Services (CMS) agreed with our
                   findings and our conclusion that the complexity of MR services warrants
                   continued attention. It outlined regulatory steps it has recently taken
                   to address overutilization of diagnostic testing services. CMS also
                   stated its commitment to examining the relationship between the
                   utilization of advanced imaging services and the entities that order and
                   bill for them.

 OEI-01-06-00261   P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   ii
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         KEY ANALYTIC CONCEPTS ............................... 7




         FINDINGS ................................................. 9

                   Certain characteristics were common to a majority of magnetic 

                   resonance services, even those ordered by high users . . . . . . . . . . . 9 


                   Connected services were provided differently than

                   services that were not connected . . . . . . . . . . . . . . . . . . . . . . . . . . 11 




         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 

                   A: Methodology. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 


                   B: Magnetic Resonance Service Delivery Diagrams . . . . . . . . . . . 21 


                   C: Statistical Tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55 


                   D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 59 

I N T R O D        U C T              I O N
Δ    I N T R O D U C T I O N


                    OBJECTIVE
                    To determine (1) how magnetic resonance (MR) services paid under
                    the Medicare Physician Fee Schedule (MPFS) are provided and
                    (2) whether there is a relationship between utilization levels of
                    services and how they are provided.


                    BACKGROUND
                    Previous Office of Inspector General (OIG) work documented a more
                    than fourfold increase in MR services paid under the MPFS between
                    1995 and 2005.1 By 2005, 43 percent of all Medicare-covered MR
                    services were paid under the MPFS.2
                    Overview of Magnetic Resonance
                    MR enables doctors to diagnose and treat patients by providing
                    detailed images of tissues and blood vessels deep inside the body. MR
                    is used to detect a number of conditions, including cancer, heart
                    disease, damage to bones and organs, and brain disorders. Advances
                    in technology continue to expand the number of clinical applications
                    for MR and increase its availability in ambulatory settings covered
                    under the MPFS, such as doctors’ offices and imaging centers.
                    Payment for Magnetic Resonance Services Under the Medicare Physician
                    Fee Schedule
                    Medicare covers MR as a diagnostic service under § 1861(s)(3) of the
                    Social Security Act. Medicare generally covers specific imaging
                    procedures if they are supported as efficacious in scientific literature
                    and reasonable and necessary for the patient.3
                    Medicare divides imaging services into two components: the technical
                    component, which is the taking of the image, and the professional
                    component, which is the doctor interpreting the image. Medicare may
                    pay for the components separately, to different providers, or it may
                    make a global payment to one provider as payment for both
                    components, even when different providers perform the technical and


                    1 OIG, “Growth in Advanced Imaging Paid Under the Medicare Physician Fee Schedule,” 

                    OEI-01-06-00260, October 2007.

                    2 The remaining 57 percent were covered under the Hospital Outpatient Prospective 

                    Payment System and the Hospital Inpatient Prospective Payment System. 

                    3 Centers for Medicare & Medicaid Services (CMS) “Medicare National Coverage

                    Determinations Manual,” Pub. No. 100-03 § 220.1. 




 OEI-01-06-00261    P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   1
I N T R O D        U C T              I O N 



                    professional components.4 In 2005, the average allowed charge for
                    the professional component of the most commonly performed service,
                    MR imaging of the spine without dye, was $77. The average allowed
                    charge for the technical component of the same service was $463 and
                    for the global payment, $579.

                    Medicare allows providers to purchase either component of MR services
                    from other providers.5 Thus, a provider may pay another provider to
                    perform the service and then bill Medicare as if it had performed the
                    service itself. However, specific rules apply to how and when providers
                    may bill Medicare for each component.6
                    In certain situations, Medicare allows a doctor to reassign his or her
                    Medicare payments to another entity.7 For example, a doctor might
                    reassign payment for services performed to his or her group practice.
                    Roles Involved in Providing Magnetic Resonance Services Under the
                    Medicare Physician Fee Schedule
                    Each MR service may involve a number of persons and entities playing
                    different roles, which are defined in Table 1 below.

                    Table 1: Roles Involved in Magnetic Resonance Services

                        Orderer                            The doctor who orders the MR service, typically the doctor treating the
                                                           patient

                        Performer                          The provider that performs the technical component by operating the MR
                                                           machine that produces images for interpretation

                        Reader                             The doctor who provides the professional component by interpreting the
                                                           images from the technical component performer

                        Biller                             The provider under whose provider number the claim for the service is
                                                           submitted to Medicare

                        Payee                              The entity that receives payment from Medicare for the service


                        Lessor*                            An entity that provides leased MR equipment used for the service


                        Coowner*                           An entity that coowns MR equipment used for the service


                        * Not necessarily involved in every MR service.



                    4 For purposes of this document, we use the term “provider” to refer to Part B suppliers, 

                    which include doctors, group practices, imaging centers, and others. 

                    5 Social Security Act § 1842(n), 42 U.S.C. § 1395u(n)(2005). 

                    6 CMS “Medicare Claims Processing Manual,” Pub. No. 100-04, ch.1, § 30.2. 

                    7 Social Security Act § 1842(b)(6), 42 U.S.C. § 1395u(b)(6).





 OEI-01-06-00261    P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS            2
I N T R O D        U C T              I O N 



                    These roles may be played by doctors, group practices, imaging
                    centers, or other entities. In a given service episode, each role may be
                    played by the same or multiple parties.
                    Provider Relationships Involved in Magnetic Resonance Service Delivery
                    When multiple parties are involved in a service episode, they may be
                    connected to one another through medical practice relationships and/or
                    other business relationships.

                    For purposes of this report, a medical practice relationship exists when
                    parties share membership in a medical practice or when one party is a
                    member of the other. An example of the former is a relationship in
                    which the ordering and billing doctors are members of the same group
                    practice (two individuals who own or are otherwise related to a third
                    entity). An example of the latter is a relationship in which a group
                    practice is a member of a larger health system. An entire service
                    episode could occur within a single group practice: different practice
                    members might play the roles of orderer, performer, and reader, with
                    the practice serving as the biller and payee.

                    For purposes of this report, a business relationship exists when two
                    parties have a shared business interest, such as shared investments or
                    contracts with one another. For example, a radiology group and an
                    orthopedic group may operate an imaging center through a joint
                    venture. Alternatively, the radiologists within a multispecialty group
                    practice might coown the MR equipment used by the practice and lease
                    it to the medical practice. Contracts may include lease arrangements,
                    whereby a provider leases space, equipment, and/or staff from an
                    imaging center. An example is a block lease, whereby the payee leases
                    a block of time from an imaging center during which the imaging center
                    performs services on behalf of the payee.

                    All parties must ensure that their relationships for providing MR
                    services comply with Federal prohibitions on self-referral, kickbacks,
                    and the markup of tests purchased from other providers.8 These
                    prohibitions are in place to protect the Medicare program and its
                    beneficiaries from unnecessary and inappropriate use of services.

                    Medicare claims readily identify the orderer, biller, and payee for each
                    service. The performer of the service and underlying arrangements


                    8 Social Security Act § 1128B(b), 42 U.S.C. § 1320a-7b(b); Social Security Act § 1877,
                    42 U.S.C. § 1395nn; Social Security Act § 1842(b)(6), 42 U.S.C. § 1395u(b)(6).



 OEI-01-06-00261    P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   3
I N T R O D        U C T              I O N


                    between providers of MR services, such as leases or coownership, may
                    not be evident from the claims. As a result, and because there are many
                    ways that providers can work together, it is difficult to identify all of the
                    parties and relationships involved in providing each MR service.


                    METHODOLOGY
                    We based this study on analysis of Medicare claims data and a review of
                    a stratified random sample of claims for MR. To review the claims in
                    our sample, we conducted a survey of the providers that billed for them
                    (i.e., the billers). We augmented claims and survey data with data from
                    States, the unique physician identification number (UPIN) file, and the
                    Internet. We also visited three MR providers to learn how they provide
                    MR services. See Appendix A for a full discussion of our methodology.
                    Scope
                    This study is national in scope and focuses on the technical component
                    of MR services paid under the MPFS in 2005, whether billed globally or
                    for the technical component only. We did not evaluate the legality of
                    the provider relationships we identified in our review of MR services.
                    We did not evaluate the appropriateness or medical necessity of MR
                    services. In studying reassignment, we focused on claims for which the
                    biller’s UPIN differed from the payee’s UPIN. We did not evaluate
                    whether claims were subject to a valid reassignment in accordance with
                    all Medicare laws and regulations.9
                    Data Collection
                    We analyzed Part B data from Medicare’s National Claims History
                    (NCH) to create a population file of claims for MR services in 2005.
                    Based on our analysis of the NCH, we assigned each service in the
                    population to one of three strata: services ordered by doctors whose
                    allowed charges for the MR services they ordered placed them at or
                    above the 95th percentile among all doctors who ordered MR (high
                    users); services ordered by doctors whose charges for all advanced
                    imaging—MR, computed tomography, and positron emission
                    tomography—placed them at or above the 95th percentile among all
                    doctors who ordered these services; and services ordered by doctors who
                    were in neither of the other two strata. Our population file contained
                    2,624,045 MR claims representing 2,629,061 allowed services and

                    9 Social Security Act § 1842(b)(6), 42 U.S.C. § 1395u(b)(6), CMS “Medicare Claims
                    Processing Manual,” Pub. No. 100-04, ch.1, § 30.2.



 OEI-01-06-00261    P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   4
I N T R O D        U C T              I O N 



                    $1.8 billion in allowed charges. From this file, we drew a stratified
                    simple random sample of 600 claims that were billed through
                    548 unique provider numbers. Because it was under investigation by
                    OIG, we dropped one provider from our study, leaving 547 billers and
                    599 claims in our sample.

                    To learn about the MR services in our sample, we surveyed the biller for
                    each service. We received completed surveys for 598 of the 599 claims
                    in our sample, yielding a response rate of 99.8 percent. We used
                    estimates from these 598 claims to project to the population.

                    We supplemented our survey data with business registration data from
                    States, as well as data about providers from the UPIN file, the
                    American College of Radiology Web site, provider Web sites, and Google
                    Maps. We used these data sources to identify the performer of each
                    service in our sample and to identify business owners, group practices,
                    and practice members of the parties involved in each service.

                    We then identified relationships among the parties involved in each
                    service in our sample. We identified medical practice relationships and
                    business relationships. When the orderer or the orderer’s group
                    practice had a relationship with a party involved in providing the
                    service, we referred to the orderer as a connected doctor and the service
                    as a connected service.

                    We used data from the claims, including procedure code modifiers,
                    provider numbers, and tax identification numbers, to determine
                    whether services were billed to Medicare globally or for the technical
                    component only. We also used these data to determine whether the
                    payment was reassigned from the biller to the payee.
                    Analysis
                    We analyzed our data to describe MR services overall, those ordered by
                    high users of MR, and those ordered by connected doctors. We
                    compared services ordered by high users to services ordered by all other
                    users, and we compared services ordered by connected doctors to
                    services ordered by all other doctors.
                    Limitations
                    Data from our provider survey were self-reported. With the exception of
                    questions related to where the service was performed, we did not
                    independently verify these data.

                    Because of the proprietary nature of business arrangements that
                    providers may use to provide MR services, it is unlikely that our review

 OEI-01-06-00261    P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   5
I N T R O D        U C T              I O N 



                    identified all of the business relationships among the parties involved
                    with the services in our sample. To the extent that we could not
                    identify all such relationships, our estimates of the number of connected
                    services might be considered conservative.
                    Standards
                    We conducted this study in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-01-06-00261    P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   6
Δ   K E Y           A N A L Y T I C                                              C O N C E P T S

                      In this report, we present data on all MR services and on two subsets of
                      MR services: those ordered by high users of MR and those ordered by
                      connected doctors (connected services). Below, we introduce key
                      concepts related to the findings of this study, including our definitions of
                      high users and connected services, and how we used our data sources to
                      draw conclusions about MR service delivery.
                      Services Ordered by High Users of Magnetic Resonance
                      For the purposes of this report, we defined high users of MR as doctors
                      whose allowed charges for services that they ordered placed them at or
                      above the 95th percentile among all doctors who ordered MR services in
                      2005. We identified the subset of services ordered by high users so that
                      we could describe how they were provided and compare them to all
                      other MR services. Table 2 below displays data about high users and all
                      other users.

        Table 2: High Users of Magnetic Resonance and All Other Users of Magnetic
        Resonance in 2005

                                                                                                         High Users             All Other Users

          Total number of doctors                                                                             11,434                    217,262

          Percentage of all doctors who ordered MR                                                                5%                       95%

          Top three specialties                                                                   Orthopedic surgery           Internal medicine

                                                                                                          Neurology              Family practice

                                                                                                    Internal medicine         Orthopedic surgery


          Total MR services ordered                                                                        1,016,918                  1,607,127

          MR services ordered, percentage of total                                                               39%                       61%

          Total charges for MR services ordered                                                        $701,605,244              $1,072,238,978

          Charges for MR services ordered, percentage of total                                                   40%                       60%


          Average number of MR services ordered per doctor                                                         89                         7

          Average MR charges per doctor                                                                     $61,361                      $4,935

        Source: OIG analysis of 2005 Part B data, 2008.


                      Connected Services
                      We defined a connected service as one in which the orderer or the
                      orderer’s group was connected—through either a medical practice or
                      other business relationship—to one or more of the parties involved in
                      providing the technical component of the service. Thus, when a doctor

OEI-01-06-00261       P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS               7
K   E Y        A      N A L Y T I C                                  C O N               C E P T       S 



                         who ordered an MR service was connected to the performer, biller,
                         payee, lessor, or coowner, we referred to the doctor as a connected doctor
                         and the service as a connected service. We identified the subset of
                         connected services so that we could describe how they were provided
                         and compare them to all other MR services.
                         Data Analysis and Appendixes
                         We analyzed two data files to draw our conclusions. One is a file of all
                         Part B claims for technical and global MR services paid under the
                         MPFS in 2005. We refer to the data in this file as the “population.” The
                         other data source is a file with the results of our review of a sample of
                         claims we selected from the population. We refer to these data as the
                         sample.

                         We based our findings on MR services overall and those ordered by high
                         users on both projections from the sample and analysis of the
                         population. Specifically, our findings on the performer and whether
                         payment was reassigned within the biller’s group rely on projections
                         from the sample. The rest of our findings on services overall and those
                         ordered by high users rely on analysis of the population.

                         We based our findings on connected services entirely on projections from
                         the sample.

                         Appendix B contains supplementary diagrams that display aspects of
                         MR service delivery and exceed the level of detail in the body of this
                         report. Each set of diagrams contains data about all services, a
                         comparison between services ordered by high users and services ordered
                         by all other users, and a comparison between services ordered by
                         connected doctors and services ordered by all other doctors. When the
                         data in a box of a diagram are based on projections from the sample,
                         corresponding confidence intervals appear in that diagram’s table of
                         confidence intervals.

                         Appendix C contains tables related to our findings that rely on
                         projections from the sample. When data in a finding are based on
                         projections from the sample, corresponding confidence intervals appear
                         in Table 1. Table 2 contains the results of statistical tests of sample
                         projections.




    OEI-01-06-00261      P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   8
    F   I N D I N G         S
   Δ        F I N D I N G S



Certain characteristics were common to a majority              In 2005, Medicare paid for about
   of magnetic resonance services paid under the               2.6 million MR services under the
  Medicare Physician Fee Schedule, regardless of               MPFS. While providers worked
         whether they were ordered by high users               together to provide services in a
                                                               number of ways, certain
                                                               characteristics related to how they
                          were ordered, performed, and billed were common to a majority of
                          services. Services largely shared these characteristics whether or not
                          they were ordered by high users of MR.
                          Two-thirds of services were ordered by one of four specialties
                          The doctors who ordered MR were concentrated among a small number
                          of specialties. See Table 3 below for the total services ordered by each of
                          the top four ordering specialties.

                          Table 3: Top Four Ordering Specialties, Magnetic Resonance Services
                          Paid Under the Medicare Physician Fee Schedule in 2005


                                Specialty                                                 Number of Services    Percentage of all Services

                                Internal medicine                                                    543,727                         21%

                                Orthopedic surgery                                                   504,102                         19%

                                Family practice                                                      348,093                         13%

                                Neurology                                                            341,737                         13%

                                   Total Top Four                                                 1,737,659                         66%

                             Source: OIG analysis of 2005 Part B data, 2008.


                          Services ordered by high users of MR were also concentrated among
                          these same ordering specialties. However, orthopedic surgeons and
                          neurologists together ordered 51 percent of the services ordered by high
                          users, compared to 20 percent of all other services.

                          Finally, the distribution of payee specialties varied little by the different
                          ordering specialties. In other words, no ordering specialty was notably
                          associated with any one payee specialty. The distribution of payee
                          specialties was largely the same among services overall, those ordered
                          by high users, and those ordered by all other users.
                          Most services were performed by the entity that was paid by Medicare
                          In 2005, the performer and the payee were the same for 85 percent of
                          MR services. The other 15 percent of services were performed by

        OEI-01-06-00261   P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS              9
F   I N D I N G         S            



                      another party on behalf of the payee. In these cases, the payee might
                      have leased imaging capacity from an imaging center or purchased the
                      service from another performer.

                      Three provider specialties—independent diagnostic testing facility
                      (IDTF), multispecialty group, and diagnostic radiology—comprised
                      88 percent of performers and payees.10 See Table 1 in Appendix C for
                      confidence intervals for findings on performing providers.

                      Finally, no statistical differences existed in these percentages among
                      MR services overall, those ordered by high users, and those ordered by
                      all other users.
                      Magnetic resonance claims were typically billed globally through
                      radiologists and had payments reassigned
                      Services for MR claims followed a consistent billing pattern, regardless
                      of whether they were ordered by high users of MR. Claims for
                      47 percent of MR services paid under the MPFS in 2005 exhibited all
                      three of these characteristics: billed globally, billed through a
                      radiologist, and payment reassigned.

                      Seventy-eight percent of services were billed globally. Global billing
                      consolidates the professional and technical components into a single claim
                      for payment to a single provider. Globally billed services can be furnished
                      in several ways. Examples include a single provider, such as an imaging
                      center, a radiology group practice, or another group practice, furnishing
                      both components; an agreement between a radiology practice, which
                      provides the professional component, and an imaging center, which
                      provides the technical component; and a radiologist working under
                      contract to furnish the professional component of services performed by
                      imaging centers and group practices.

                      Fifty-four percent of all services were billed through a radiologist’s
                      provider number. When a radiologist was the biller for the service, the
                      radiologist could have provided either or both the technical and
                      professional components of the test.

                      For purposes of this report, we classified a service as having had payment
                      reassigned when the biller’s UPIN differed from the payee’s UPIN. We
                      determined that payment was reassigned for 68 percent of services.
                      Eighty-six percent of reassignments were from a doctor to his or her group

                      10 In Medicare claims data, IDTF and multispecialty group are considered nonphysician
                      provider specialties. CMS, “Medicare Claims Processing Manual,” Pub. No. 100-4, ch. 26.



    OEI-01-06-00261   P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   10
     F   I N D I N G         S            



                           practice. For the remaining 14 percent of reassignments, we were unable
                           to identify the connection between the payee and the biller. Payment for
                           global bills was reassigned 71 percent of the time, while payment for
                           technical component-only bills was reassigned 53 percent of the time. See
                           Table 1 in Appendix C for confidence intervals for percentages of services
                           with payments reassigned from a doctor to his or her group practice and
                           those with payments reassigned to a provider with no identified
                           connection.

                           Finally, billing for services largely reflected these characteristics
                           whether or not they were ordered by high users of MR. Seventy-eight
                           percent of services ordered by high users were billed globally, 52 percent
                           were billed through a radiologist’s provider number, and 68 percent had
                           payment reassigned. These percentages are nearly identical to those for
                           services ordered by all other users. In addition, no statistical
                           differences existed in the percentage of payments reassigned within the
                           biller’s group among MR services overall, those ordered by high users,
                           and those ordered by all other users.


Connected services were provided differently                In our review, we found that one-quarter
                                                            of MR services paid under the MPFS in
      than services that were not connected
                                                            2005 were connected services. In these
                           services, the ordering doctor or the ordering doctor’s group had a
                           medical practice or other business connection to one or more of the
                           parties involved in providing the service. All differences between
                           connected and all other services (those that were not connected) that
                           appear below were statistically significant at the 95-percent confidence
                           level. See Tables 1 and 2 in Appendix C for corresponding confidence
                           intervals and statistical tests.
                           Connected services were associated with high use
                           High users of MR ordered 55 percent of connected services, compared to
                           33 percent of services that were not connected.
                           Connected services were more likely to have been ordered by orthopedic
                           surgeons
                           Orthopedic surgeons ordered 28 percent of connected services, compared
                           to 15 percent of all other services. Among the four most prevalent
                           ordering specialties—internal medicine, orthopedic surgery, family
                           practice, and neurology—this is the only difference in the percentages of
                           services each ordered that was statistically significant.



         OEI-01-06-00261   P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   11
F   I N D I N G         S            



                      Connected services were more likely to have been performed by
                      multispecialty groups
                      Multispecialty groups performed and were paid for half of connected
                      services, compared to only one-quarter of services that were not
                      connected. The IDTF and diagnostic radiology specialties played a
                      smaller role in connected services than in all other services. Specialties
                      other than multispecialty group, IDTF, and diagnostic radiology played
                      a significantly larger role in connected services than in all other
                      services. See Tables 4 and 5 below for a comparison of top performer
                      and payee specialties for connected services and those that were not
                      connected.

                      Table 4: Top Specialties of Performers, Connected Services, and
                      All Other Services

                                                                                       Percentage of             Percentage of All
                            Performer Specialty                                   Connected Services               Other Services

                            Multispecialty clinic/group                                            50%                         26%

                            IDTF                                                                   13%                         39%

                            Diagnostic radiology                                                    7%                         29%

                            All other specialties                                                  30%                          6%

                               Total                                                             100%                         100%

                         Source: OIG review of 2005 MR services, 2008.


                      Table 5: Top Specialties of Payees, Connected Services, and All
                      Other Services

                                                                                       Percentage of             Percentage of All
                            Payee Specialty                                       Connected Services               Other Services

                            Multispecialty clinic/group                                            51%                         26%

                            IDTF                                                                   11%                         38%

                            Diagnostic radiology                                                    7%                         31%

                            All other specialties                                                  31%                          5%

                               Total                                                             100%                         100%

                         Source: OIG review of 2005 MR services, 2008.




    OEI-01-06-00261   P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS          12
F   I N D I N G               S            



                            Connected services were more likely than all other services to have been
                            billed as technical component only, to have had payment reassigned, and to
                            have been billed through a provider other than a radiologist
                            See Chart 1 below for a comparison of the billing characteristics of
                            connected services and all other services.


                                                 Chart 1: Billing Characteristics of Connected and 

                                                                 All Other Services


                 100%
                                                                             87%


                      75%
                                                                                            64%             63%

                                                                                                                                    Connected
                                                                                                                                    services
                      50%
                                                                                                                    38%
                                                                                                                                    All other
                                     33%
                                                                                                                                    services

                      25%
                                                  14%



                      0%

                            Technical component-                         Payment reassigned           Billed through a provider

                                   only bill                                                           other than a radiologist


                Source: OIG review of 2005 MR services, 2008.




    OEI-01-06-00261         P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS          13
Δ   C O N C L U S I O N

                  The Medicare program has seen rapid growth in MR and other types of
                  advanced imaging performed in doctors’ offices, imaging centers, and
                  other settings covered by the MPFS. As more services are performed in
                  these settings, doctors are increasingly in a position to order services
                  from parties with which they have a medical practice or other business
                  relationship. In these circumstances, doctors may have conflicts of
                  interest, financial or otherwise.

                  In this review, we sought to learn about how providers delivered MR
                  covered under the MPFS and whether certain relationships among
                  providers were associated with high use of services. In particular, we
                  were interested in connected services, which are services ordered by
                  doctors who were connected to the parties that provided them.

                  We found a relationship between connected services and services
                  ordered by high users of MR, but we also found that the two subsets of
                  services differed in several ways. We found that services ordered by
                  high users of MR were largely similar to all other services in how they
                  were furnished and billed to Medicare. However, this was not the case
                  for connected services, which differed significantly from services that
                  were not connected.

                  The findings in this report highlight the complex nature of how
                  providers deliver MR paid under the MPFS. The large number of ways
                  that various parties can perform and bill for services reduces the
                  transparency of these transactions. Although the analysis in this report
                  was limited to MR, it is possible that such complexity extends to other
                  types of high-cost imaging paid under the MPFS. The complexity and
                  limited transparency with which these services are provided warrants
                  continued attention to ensure that services are reasonable, necessary,
                  and compliant with Medicare statutes and regulations.


                  AGENCY COMMENTS
                  CMS agreed with our findings and our conclusion that the complexity of
                  MR services warrants continuted attention. It outlined regulatory steps
                  it has taken to curb overutilization of diagnostic testing services. These
                  include expanding the antimarkup provision to the professional
                  component of services and seeking public comment on the in-office
                  ancillary exception to the physician self-referral law. CMS also stated
                  its commitment to examining the relationship between the utilization of
                  advanced imaging services and the entities that order and bill for them.
                  The complete text of CMS’s comments appears in Appendix D.

OEI-01-06-00261   P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   14
Δ   A P P E N D I X ~ A



                  Methodology
                  We based this study on analysis of Medicare claims data and a review of
                  a stratified random sample of claims for magnetic resonance (MR). To
                  review the claims in our sample, we conducted a survey of the providers
                  that billed for them. We augmented our survey data with business
                  registration data from States and data about providers from the unique
                  physician identification number (UPIN) file, the American College of
                  Radiology Web site, provider Web sites, and Google Maps. We also
                  visited three MR providers to learn how they provide MR services.
                  Scope
                  This study is national in scope and focuses on the technical component
                  of MR services paid under the Medicare Physician Fee Schedule (MPFS)
                  in 2005. We focused on the technical component because it is the most
                  costly component of MR services. We focused on MR because it has a
                  wide range of clinical applications across ambulatory settings.

                  We used 100-percent Part B carrier claims data from Medicare’s
                  National Claims History (NCH) and data from a stratified simple
                  random sample to describe MR services.

                  We did not attempt to make any judgments about the legality of the
                  provider relationships we identified in our review.
                  Creation of Population File
                  The data source for our sample was Medicare’s 2005 NCH, which
                  contains all claims activity for Medicare fee-for-service beneficiaries.
                  From this source, we created a population file of 2,624,045 Part B
                  claims for MR services from which we drew our sample. We also used
                  this population file in our descriptive analysis of how MR services were
                  furnished and billed. Below are the steps we took to create this file and
                  draw our sample.
                  Create a file of claims for global and technical component services. We
                  extracted Part B carrier claims from the 2005 NCH to create a file of
                  technical component and global claims for MR, computed tomography
                  (CT), and positron emission tomography (PET). This file contained
                  6,009,091 claims reflecting $3.3 billion in allowed charges.

                  We then excluded 172,585 records with invalid data for the UPIN of the
                  ordering doctor or allowed charges under $100. We did so because we
                  needed valid UPIN data to profile ordering doctors and because claims


OEI-01-06-00261   P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   15
A   P P E N D         I X ~            A             



                      with allowed charges under $100 were unlikely to be for the technical
                      component of services. These represent 2.9 percent of the records in our
                      original file and 2.9 percent of allowed charges.

                      The resulting file contained 5,836,506 claim records. Each record
                      contained the Healthcare Common Procedure Coding System (HCPCS)
                      code and modifiers, UPIN number and specialty of the biller, UPIN
                      number of the orderer, tax identification number of the payee, and
                      beneficiary identifier.
                      Create profiles of ordering doctors. We summarized our claims file by
                      orderer’s UPIN to create a profile record for each doctor who ordered
                      one or more services. The resulting file had 284,105 records. Each
                      record contained allowed charges for MR, CT, and PET ordered by the
                      doctor in 2005—for each modality and for all three combined. Records
                      also included percentile rankings based on those charges. Of the
                      orderers in the file, 228,696 ordered MR. Based on analysis of the
                      distributions of allowed charges in the file, we categorized each orderer
                      of MR into one of three strata: doctors whose allowed charges for the
                      MR services they ordered placed them at or above the 95th percentile
                      among all doctors who ordered MR (high group); doctors whose
                      collective charges for MR, CT, and PET services placed them at or above
                      the 95th percentile among all doctors who ordered these services
                      (collective high group); and doctors who were in neither the high nor the
                      collective high strata (regular group).
                      Append profiles to MR claims and assign claims to strata. Our population file
                      contained 2,624,045 MR claims representing 2,629,061 allowed services
                      and $1.8 billion in allowed charges. Next, we merged each orderer’s
                      profile with the claims for MR services that he or she ordered. This
                      enabled us to assign each claim to a stratum based on whether its
                      orderer was in the high, collective high, or regular group of MR users.
                      Sample Selection
                      From our stratified population file, we drew a stratified simple random
                      sample of claims for services ordered by high, collective high, and
                      regular users. The population and sample size for each stratum are
                      shown in Table 1 on the following page.




    OEI-01-06-00261   P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   16
A   P   P E N D          I X ~                 A             





               Table 1: Population of Magnetic Resonance Claims and Sample Strata

                                             Ordering Doctor's
                 Stratum                                                             2005 Population           Allowed Charges        Sample Size
                                                    Use of MR

                 1                                                   High                       1,016,918          $701,605,244                 200

                 2                                  Collective High                               19,695            $15,526,233                 100

                 3                                               Regular                        1,587,432        $1,056,712,744                 300

                      Total                                                                     2,624,045        $1,773,844,221                 600

                 Source: Office of Inspector General (OIG) analysis of 2005 Part B data, 2006.


                              The 600 claims in our sample were billed under a total of 548 unique
                              provider numbers. We used the UPIN file to locate the names and
                              addresses of these billers and vetted them with our Office of
                              Investigations. As a result of vetting, we dropped one provider from our
                              study, leaving 547 billers and 599 claims in our sample.
                              Mail Survey
                              To learn about how MR services in our sample were provided, we
                              surveyed the biller for each service. The survey contained 14 questions
                              related to the biller’s relationship with the orderer of the service, the
                              name and location of the performer, equipment ownership and leasing,
                              and whether the provider had a business or medical practice
                              relationship with any of the parties involved in providing the service.
                              We tested the survey with four providers and vetted it within OIG.

                              To conduct the survey, we used express delivery to send each biller a
                              package with a cover letter, a survey, a preaddressed prepaid return
                              envelope, and an instructions page with information identifying the
                              specific service about which we were asking. We instructed the biller to
                              answer the survey only with respect to the technical component of the
                              specific service identified. If a biller had more than one claim in our
                              sample, we sent an instruction sheet and survey for each claim.

                              We received completed surveys from 546 of the 547 billers in our
                              sample. We could not locate one biller that had retired from medical
                              practice. The surveys we received covered 598 of the 599 claims in our
                              sample, yielding a response rate of 99.8 percent.
                              Supplemental Data
                              To learn more about how MR services in our sample were provided, we
                              supplemented our survey data with business registration data from
                              States, as well as data about providers from the UPIN file, the

    OEI-01-06-00261           P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS        17
A   P   P E N D       I X ~            A             



                      American College of Radiology Web site, provider Web sites, and Google
                      Maps.

                      We used business registration data from States to identify owners of
                      any business that played a role in providing a service. Such businesses
                      included equipment leasing companies, imaging centers, and medical
                      groups incorporated as professional corporations. We used the UPIN
                      file to identify group practices and group practice members of all
                      primary parties involved with the services. We also cross-referenced the
                      payee tax identification number from each sampled claim with the
                      UPIN file to identify the payee for each service in our sample. We used
                      provider Web sites to identify practice members, locations, and
                      affiliations with other providers. We used the American College of
                      Radiology’s Web site and Google Maps to aid in verifying performers’
                      locations. Any time we identified an individual, group practice, or other
                      provider associated with a claim, we searched the UPIN file by provider
                      name and location to identify and record that provider’s UPIN.
                      Identification of Relationships and Connected Doctors
                      We used both a computer program and a manual review to identify
                      medical practice relationships and business relationships among the
                      primary parties involved with each service in our sample. We defined
                      medical practice relationships as a doctor who was member of a group
                      practice or on staff at a hospital. Business relationships included
                      shared participation as investors in a joint venture, one party having an
                      ownership or managerial interest in the other, and contracts.

                      When we determined that the orderer or the orderer’s group practice
                      had a relationship with one or more of the parties involved in providing
                      the service, we referred to the orderer as a connected doctor and the
                      service as a connected service.
                      Description of Billing Attributes
                      We classified all claims in our population as bills for either global
                      payment or for the technical component only and as either having had
                      payment reassigned or not having had payment reassigned. To classify
                      a service as billed globally or for the technical component only, we used
                      the two HCPCS modifiers that were on the claim. To classify a service
                      as having had payment reassigned, we used the UPIN numbers of the
                      biller and the payee. When the biller’s UPIN differed from the payee’s
                      UPIN, we classified the service as having had its payment reassigned.
                      We did not determine whether other types of reassignments may have
                      occurred.

    OEI-01-06-00261   P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   18
A   P   P E N D       I X ~            A             



                      When we classified services in our sample as having had payment
                      reassigned, we used the UPIN file and our supplemental data to
                      determine whether payment was reassigned within the biller’s group.
                      When the UPIN file or our supplemental data showed that the biller
                      was a member of the payee, we classified the reassignment as within
                      the biller’s group.
                      Analysis
                      Findings and conclusions are based on analyses of data from the
                      population file and from our sample.

                      We analyzed these data to describe MR services overall, the subset of
                      those ordered by high users of MR, and the subset of those ordered by
                      connected doctors. We compared services ordered by high users to
                      services ordered by all other users and compared services ordered by
                      connected doctors to services ordered by all other doctors.

                      We based our findings on MR services overall and those ordered by high
                      users on analysis of both the sample and the population. Specifically,
                      our findings on the performer and whether payment was reassigned
                      within the biller’s group rely on analysis of the sample. The rest of our
                      findings on services overall and those ordered by high users rely on
                      analysis of the population.

                      We based our findings on connected services entirely on analysis of the
                      sample.
                      Limitations
                      Data from our provider survey were self-reported. With the exception of
                      questions related to where the service was performed, we did not
                      independently verify these data.

                      Because of the proprietary nature of business arrangements that
                      providers may use to provide MR services, it is unlikely that our review
                      identified all of the business relationships among the parties involved
                      with the services in our sample. To the extent that we could not
                      identify all such relationships, our estimates might be considered
                      conservative.

                      We considered each claim in our population file to represent one MR
                      service. However, our population file contained 3,219 claims for more
                      than one service. We found that claims with more than one service had
                      average allowed charges per service of $566 and that those with more
                      than two services had allowed charges per service of $248. This
                      compares to $675 for claims with one service only. Instead of reviewing

    OEI-01-06-00261   P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   19
A   P   P E N D       I X ~            A             



                      each of the claims with more than one service to judge whether their
                      service counts were valid, we decided to count them as claims for one
                      service only. The additional services that we did not count on these
                      claims totaled 5,016 services, or 0.2 percent of our sample population.




    OEI-01-06-00261   P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   20
Δ   A P P E N D I X ~ B


                  Magnetic Resonance Service Delivery Diagrams


                  DIAGRAM 1:                              S E R V I C E D E L I V E R Y . . . . . . . . . . . . . . . . . . . . . . 22 

                                1a: All services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 


                                1b: Services ordered by high users . . . . . . . . . . . . . . . . . . . . . . . . 23 


                                1c: Services ordered by all other users . . . . . . . . . . . . . . . . . . . . . 24 


                                1d: Services ordered by connected doctors . . . . . . . . . . . . . . . . . . 25 


                                1e: Services ordered by all other doctors. . . . . . . . . . . . . . . . . . . . 26 


                  DIAGRAM 2:                              R E A S S I G N M E N T O F P A Y M E N T . . . . . . . . . . . 27 

                                2a: All services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27 


                                2b: Services ordered by high users . . . . . . . . . . . . . . . . . . . . . . . . 28 


                                2c: Services ordered by all other users . . . . . . . . . . . . . . . . . . . . . 29 


                                2d: Services ordered by connected doctors . . . . . . . . . . . . . . . . . . 30 


                                2e: Services ordered by all other doctors. . . . . . . . . . . . . . . . . . . . 31 


                  DIAGRAM 3:                              B I L L I N G M E T H O D . . . . . . . . . . . . . . . . . . . . . . . . . 32 

                                3a: All services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32 


                                3b: Services ordered by high users . . . . . . . . . . . . . . . . . . . . . . . . 33 


                                3c: Services ordered by all other users . . . . . . . . . . . . . . . . . . . . . 34 


                                3d: Services ordered by connected doctors . . . . . . . . . . . . . . . . . . 35 


                                3e: Services ordered by all other doctors. . . . . . . . . . . . . . . . . . . . 36 


                  DIAGRAM 4:                              P R O V I D E R R E L A T I O N S H I P S . . . . . . . . . . . . . . 37 

                                4a: All services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37 


                                4b: Services ordered by high users . . . . . . . . . . . . . . . . . . . . . . . . 38 


                                4c: Services ordered by all other users . . . . . . . . . . . . . . . . . . . . . 39 


                                4d: Services ordered by connected doctors . . . . . . . . . . . . . . . . . . 40 


                                4e: Services ordered by all other doctors. . . . . . . . . . . . . . . . . . . . 41 


                  C O N F I D E N C E I N T E R V A L T A B L E S . . . . . . . . . . . . . . . . . . . . . . . 42 


OEI-01-06-00261     P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS       21
  A    P   P E N D           I X ~             B             





                                Diagram 1a: Service Delivery, All Services




Percentages in one column may not add to those in the preceding column because of rounding. 


Source: Office of Inspector General (OIG) analysis of 2005 Part B data and OIG review of 2005 

magnetic resonance (MR) services, 2008. 

See Table 1a on p. 42 for confidence intervals. 





      OEI-01-06-00261         P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   22
A   P   P E N D          I X ~              B             





         Diagram 1b: Service Delivery, Services Ordered by High Users




Percentages in one column may not add to those in the preceding column because of rounding.

Source: OIG analysis of 2005 Part B data and OIG review of 2005 MR services, 2008.
See Table 1b on p. 43 for confidence intervals.




    OEI-01-06-00261        P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   23 

A   P    P E N D         I X ~              B             




        Diagram 1c: Service Delivery, Services Ordered by All Other Users




Percentages in one column may not add to those in the preceding column because of rounding.

Source: OIG analysis of 2005 Part B data and OIG review of 2005 MR services, 2008.
See Table 1c on p. 44 for confidence intervals.




    OEI-01-06-00261        P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   24
A   P    P E N D          I X ~             B             





 Diagram 1d: Service Delivery, Services Ordered by Connected Doctors




Percentages in one column may not add to those in the preceding column because of rounding.

Source: OIG review of 2005 MR services, 2008.
See Table 1d on p. 45 for confidence intervals.




    OEI-01-06-00261        P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   25
     A   P    P E N D          I X ~             B             





         Diagram 1e: Service Delivery, Services Ordered by All Other Doctors




Percentages in one column may not add to those in the preceding column because of rounding.

Source: OIG review of 2005 MR services, 2008.
See Table 1e on p. 46 for confidence intervals.




         OEI-01-06-00261        P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   26
A     P   P E N D          I X ~             B             





              Diagram 2a: Reassignment of Payment, All Services




    Percentages in one column may not add to those in the preceding column because of rounding.

    Source: OIG analysis of 2005 Part B data and OIG review of 2005 MR services, 2008.
    See Table 2a on p. 47 for confidence intervals.




     OEI-01-06-00261        P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   27 

 A   P   P E N D          I X ~             B             





Diagram 2b: Reassignment of Payment, Services Ordered by High Users




 Percentages in one column may not add to those in the preceding column because of rounding.

 Source: OIG analysis of 2005 Part B data and OIG review of 2005 MR services, 2008.
 See Table 2b on p. 47 for confidence intervals.




     OEI-01-06-00261       P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   28 

  A   P   P E N D          I X ~              B             





Diagram 2c: Reassignment of Payment, Services Ordered by All Other Users




      Percentages in one column may not add to those in the preceding column because of rounding.

      Source: OIG analysis of 2005 Part B data and OIG review of 2005 MR services, 2008.
      See Table 2c on p. 47 for confidence intervals.




      OEI-01-06-00261        P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   29 

  A   P    P E N D          I X ~             B             





Diagram 2d: Reassignment of Payment, Services Ordered by Connected Doctors




          Percentages in one column may not add to those in the preceding column because of rounding.

          Source: OIG analysis of 2005 Part B data and OIG review of 2005 MR services, 2008.
          See Table 2d on p. 47 for confidence intervals.




      OEI-01-06-00261        P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   30
 A   P   P E N D          I X ~             B             





Diagram 2e: Reassignment of Payment, Services Ordered by All Other Doctors




     Percentages in one column may not add to those in the preceding column because of rounding.

     Source: OIG analysis of 2005 Part B data and OIG review of 2005 MR services, 2008.
     See Table 2e on p. 47 for confidence intervals.




     OEI-01-06-00261       P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   31 

  A    P   P E N D          I X ~             B             





                                 Diagram 3a: Billing Method, All Services




Percentages in one column may not add to those in the preceding column because of rounding.

Source: OIG analysis of 2005 Part B data and OIG review of 2005 MR services, 2008.
See Table 3a on p. 48 for confidence intervals.




      OEI-01-06-00261        P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   32
     A   P   P E N D          I X ~              B             





                Diagram 3b: Billing Method, Services Ordered by High Users




Percentages in one column may not add to those in the preceding column because of rounding.

Source: OIG analysis of 2005 Part B data and OIG review of 2005 MR services, 2008.
See Table 3b on p. 48 for confidence intervals.




         OEI-01-06-00261        P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   33 

       A    P   P E N D          I X ~             B             





                Diagram 3c: Billing Method, Services Ordered by All Other Users




Percentages in one column may not add to those in the preceding column because of rounding.

Source: OIG analysis of 2005 Part B data and OIG review of 2005 MR services, 2008.
See Table 3c on p. 48 for confidence intervals.




           OEI-01-06-00261        P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   34
     A   P    P E N D          I X ~             B             





          Diagram 3d: Billing Method, Services Ordered by Connected Doctors




Percentages in one column may not add to those in the preceding column because of rounding.

Source: OIG review of 2005 MR services, 2008.
See Table 3d on p. 49 for confidence intervals.




         OEI-01-06-00261        P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   35
     A   P    P E N D          I X ~             B             





             Diagram 3e: Billing Method, Services Ordered by All Other Doctors




Percentages in one column may not add to those in the preceding column because of rounding.

Source: OIG review of 2005 MR services, 2008.
See Table 3e on p. 49 for confidence intervals.




         OEI-01-06-00261        P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   36
          A    P   P E N D          I X ~              B             





                          Diagram 4a: Provider Relationships, All Services


                                                                                                                                                   *




“CX” = Connection: Parties are the same or one is a member of the other. 


Percentages in one column may not add to those in the preceding column because of rounding. 


* Projections in the right-most column are based on 589 sample units and those in the column that
precedes it are based on 590. This causes some percentages in the right-most column to vary
from the values in the preceding column.

Source: OIG review of 2005 MR services, 2008.
See Table 4a on p. 50 for confidence intervals.




              OEI-01-06-00261         P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   37
       A   P   P E N D           I X ~             B             





            Diagram 4b: Provider Relationships, Services Ordered by High Users


                                                                                                                                               *




“CX” = Connection: Parties are the same or one is a member of the other. 


Percentages in one column may not add to those in the preceding column because of rounding. 


* Projections in the right-most column are based on 195 sample units and those in the column
that precedes it are based on 196. This causes some percentages in the right-most column to
vary from the values in the preceding column.

Source: OIG review of 2005 MR services, 2008.
See Table 4b on p. 51 for confidence intervals.




           OEI-01-06-00261        P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   38
   A    P   P E N D           I X ~             B             





     Diagram 4c: Provider Relationships, Services Ordered by All Other Users




“CX” = Connection: Parties are the same or one is a member of the other. 


Percentages in one column may not add to those in the preceding column because of rounding. 


Source: OIG review of 2005 MR services, 2008. 

See Table 4c on p. 52 for confidence intervals. 





       OEI-01-06-00261         P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   39
A   P    P E N D          I X ~              B             





    Diagram 4d: Provider Relationships, Services Ordered by Connected Doctors




“CX” = Connection: Parties are the same or one is a member of the other. 


Percentages in one column may not add to those in the preceding column because of rounding. 


Source: OIG review of 2005 MR services, 2008. 

See Table 4d on p. 53 for confidence intervals. 





    OEI-01-06-00261         P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   40
       A    P   P E N D           I X ~             B             





            Diagram 4e: Provider Relationships, Services Ordered by All Other Doctors


                                                                                                                                                *




“CX” = Connection: Parties are the same or one is a member of the other. 


Percentages in one column may not add to those in the preceding column because of rounding. 


* Projections in the right-most column are based on 449 sample units and those in the column
that precedes it are based on 450. This causes some percentages in the right-most column to
vary from the values in the preceding column.

Source: OIG review of 2005 MR services, 2008.
See Table 4e on p. 54 for confidence intervals.


           OEI-01-06-00261         P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   41
 A    P P E N D                 I X ~             B             




Table 1a: Confidence Intervals for Diagram 1a: Service Delivery, All Services



                                                                                                                       95-Percent Confidence
  Service Characteristic                                                     Point Estimate             Sample Size                  Interval

  Payee connected to Performer                                                          85.3%                   590                 82.1%–88.4%

      Reassigned                                                                        58.5%                   589                 54.2%–62.9%

          Within group                                                                  50.4%                   589                 46.0%–54.8%

          Outside group                                                                     8.2%                589                  5.7%–10.6%

      Biller UPIN same as Payee UPIN                                                    26.7%                   589                 22.8%–30.6%




  Payee not connected to Performer                                                      14.7%                   590                 11.6%–17.9%

      Reassigned                                                                        11.5%                   589                  8.7%–14.3%

          Within group                                                                      9.5%                589                  6.9%–12.1%

          Outside group                                                                     2.0%                589                  1.1%–3.7%*

      Biller UPIN same as Payee UPIN                                                        3.2%                589                      1.7%–4.8%

* Confidence interval calculated using the logit transformation because of poor coverage properties of the standard approximation method
when a small number of sample elements possess the characteristic of interest.




     OEI-01-06-00261             P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS               42
A   P    P E N D          I X ~            B             



Table 1b: Confidence Intervals for Diagram 1b: Service Delivery, Services Ordered by
High Users


                                                                                                                95-Percent Confidence
 Service Characteristic                                               Point Estimate             Sample Size                  Interval

 Payee connected to Performer                                                    82.7%                   196                 77.3%–88.0%

    Reassigned                                                                   60.0%                   195                 53.1%–66.9%

        Within group                                                             53.3%                   195                 46.3%–60.4%

        Outside group                                                                6.7%                195                  3.1%–10.2%

    Biller UPIN same as Payee UPIN                                               22.6%                   195                 16.7%–28.5%




 Payee not connected to Performer                                                17.3%                   196                 12.0%–22.7%

    Reassigned                                                                   13.8%                   195                  9.0%–18.7%

        Within group                                                             10.3%                   195                  6.0%–14.5%

        Outside group                                                                3.6%                195                      1.0%–6.2%

    Biller UPIN same as Payee UPIN                                                   3.6%                195                      1.0%–6.2%




    OEI-01-06-00261       P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS               43
 A    P    P E N D              I X ~             B             



Table 1c: Confidence Intervals for Diagram 1c: Service Delivery, Services Ordered by All
Other Users


                                                                                                                       95-Percent Confidence
  Service Characteristic                                                     Point Estimate             Sample Size                  Interval

  Payee connected to Performer                                                          86.9%                   394                 83.1%–90.7%

      Reassigned                                                                        57.6%                   394                 52.0%–63.2%

          Within group                                                                  48.5%                   394                 42.9%–54.2%

          Outside group                                                                     9.1%                394                  5.8%–12.3%

      Biller UPIN same as Payee UPIN                                                    29.3%                   394                 24.2%–34.4%




  Payee not connected to Performer                                                      13.1%                   394                  9.3%–16.9%

      Reassigned                                                                        10.1%                   394                  6.7%–13.5%

          Within group                                                                      9.1%                394                  5.8%–12.3%

          Outside group                                                                     1.0%                394                  0.3%–3.1%*

      Biller UPIN same as Payee UPIN                                                        3.0%                394                      1.1%–5.0%

* Confidence interval calculated using the logit transformation because of poor coverage properties of the standard approximation method
when a small number of sample elements possess the characteristic of interest.




     OEI-01-06-00261             P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS               44
 A    P    P E N D              I X ~             B             



Table 1d: Confidence Intervals for Diagram 1d: Service Delivery, Services Ordered by
Connected Doctors


                                                                                                                       95-Percent Confidence
  Service Characteristic                                                     Point Estimate             Sample Size                  Interval

  Payee connected to Performer                                                          79.2%                   140                 72.1%–86.3%

      Reassigned                                                                        69.6%                   140                 61.6%–77.7%

          Within group                                                                  60.7%                   140                 52.1%–69.2%

          Outside group                                                                     9.0%                140                  3.9%–14.0%

      Biller UPIN same as Payee UPIN                                                        9.6%                140                  4.4%–14.7%




  Payee not connected to Performer                                                      20.8%                   140                 13.7%–27.9%

      Reassigned                                                                        17.6%                   140                 10.9%–24.3%

          Within group                                                                  16.0%                   140                  9.6%–22.5%

          Outside group                                                                     1.6%                140                  0.4%–6.1%*

      Biller UPIN same as Payee UPIN                                                        3.2%                140                  1.2%–8.2%*

* Confidence interval calculated using the logit transformation because of poor coverage properties of the standard approximation method
when a small number of sample elements possess the characteristic of interest.




     OEI-01-06-00261             P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS            45
 A    P P E N D                 I X ~             B             



Table 1e: Confidence Intervals for Diagram 1e: Service Delivery, Services Ordered by All
Other Doctors


                                                                                                                       95-Percent Confidence
  Service Characteristic                                                     Point Estimate             Sample Size                  Interval

  Payee connected to Performer                                                          87.3%                   450                 83.9%–90.7%

      Reassigned                                                                        54.8%                   449                 49.8%–59.9%

          Within group                                                                  46.9%                   449                 41.9%–52.0%

          Outside group                                                                     7.9%                449                  5.1%–10.6%

      Biller UPIN same as Payee UPIN                                                    32.4%                   449                 27.7%–37.2%




  Payee not connected to Performer                                                      12.7%                   450                  9.3%–16.1%

      Reassigned                                                                            9.5%                449                  6.5%–12.5%

          Within group                                                                      7.4%                449                  4.7%–10.0%

          Outside group                                                                     2.1%                449                  1.1%–4.2%*

      Biller UPIN same as Payee UPIN                                                        3.3%                449                      1.4%–5.1%

* Confidence interval calculated using the logit transformation because of poor coverage properties of the standard approximation method
when a small number of sample elements possess the characteristic of interest.




     OEI-01-06-00261             P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS               46
A     P    P E N D             I X ~              B             




Table 2a: Confidence Intervals for Diagram 2a: Reassignment of Payment, All Services

                                                                                                                        95-Percent Confidence
    Service Characteristic                                                       Point Estimate          Sample Size                  Interval

    Reassigned within group                                                                  59.2%               417                56.7%–61.7%

    Reassigned outside group                                                                     9.9%            417                 7.4%–12.4%




Table 2b: Confidence Intervals for Diagram 2b: Reassignment of Payment, Services Ordered by
High Users

                                                                                                                        95-Percent Confidence
    Service Characteristic                                                       Point Estimate          Sample Size                  Interval

    Reassigned within group                                                                  60.5%               147                56.6%–64.4%

    Reassigned outside group                                                                     9.5%            147                 5.6%–13.4%




Table 2c: Confidence Intervals for Diagram 2c: Reassignment of Payment, Services Ordered by All
Other Users

                                                                                                                        95-Percent Confidence
    Service Characteristic                                                       Point Estimate          Sample Size                  Interval

    Reassigned within group                                                                  58.4%               270                55.0%–61.7%

    Reassigned outside group                                                                 10.2%               270                 6.8%–13.5%




Table 2d: Confidence Intervals for Diagram 2d: Reassignment of Payment, Services Ordered by
Connected Doctors

                                                                                                                        95-Percent Confidence
    Service Characteristic                                                       Point Estimate          Sample Size                  Interval

    Reassigned                                                                               87.4%               141                81.6%–93.2%

       Reassigned within group                                                               76.9%               141                69.5%–84.3%

       Reassigned outside group                                                              10.5%               141                 5.1%–15.8%

    Biller UPIN paid                                                                         12.6%               141                 6.8%–18.4%




Table 2e: Confidence Intervals for Diagram 2e: Reassignment of Payment, Services Ordered by All
Other Doctors

                                                                                                                        95-Percent Confidence
    Service Characteristic                                                       Point Estimate          Sample Size                  Interval

    Reassigned                                                                               64.3%               456                59.4%–69.1%

       Reassigned within group                                                               54.4%               456                49.3%–59.4%

       Reassigned outside group                                                                  9.9%            456                 6.9%–12.9%

    Biller UPIN paid                                                                         35.7%               456                30.9%–40.6%

     OEI-01-06-00261             P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS            47
     A    P     P E N D              I X ~              B             




Table 3a: Confidence Intervals for Diagram 3a: Billing Method, All Services

                                                                                                                                    95-Percent Confidence
  Service Characteristic                                                                    Point Estimate        Sample Size                     Interval

  Global bill, reassigned within group                                                                 49.1%             355                   46.8%–51.4%

  Global bill, reassigned outside group                                                                 8.2%             355                   5.9%–10.5%

  TC bill, reassigned within group                                                                     10.1%              62                   9.0%–11.2%

  TC bill, reassigned outside group                                                                     1.7%              62                    0.9%–3.1%*

* Confidence interval calculated using the logit transformation because of poor coverage properties of the standard approximation method when a small
number of sample elements possess the characteristic of interest.




Table 3b: Confidence Intervals for Diagram 3b: Billing Method, Services Ordered by High Users

                                                                                                                                    95-Percent Confidence
  Service Characteristic                                                                    Point Estimate        Sample Size                     Interval

  Global bill, reassigned within group                                                                 48.6%             122                   45.0%–52.2%

  Global bill, reassigned outside group                                                                 8.4%             122                   4.8%–12.0%

  TC bill, reassigned within group                                                                     12.0%              25                   10.6%–13.0%

  TC bill, reassigned outside group                                                                     1.0%              25                    0.3%–3.5%*

* Confidence interval calculated using the logit transformation because of poor coverage properties of the standard approximation method when a small
number of sample elements possess the characteristic of interest.




Table 3c: Confidence Intervals for Diagram 3c: Billing Method, Services Ordered by All Other Users

                                                                                                                                    95-Percent Confidence
  Service Characteristic                                                                    Point Estimate        Sample Size                     Interval

  Global bill, reassigned within group                                                                 49.4%             233                   46.5%–52.4%

  Global bill, reassigned outside group                                                                 8.0%             233                   5.1%–11.0%

  TC bill, reassigned within group                                                                      8.9%              37                   7.3%–10.5%

  TC bill, reassigned outside group                                                                     2.2%              37                    1.0%–4.2%*

* Confidence interval calculated using the logit transformation because of poor coverage properties of the standard approximation method when a small
number of sample elements possess the characteristic of interest.




         OEI-01-06-00261               P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS                 48
     A      P   P E N D             I X ~              B             



Table 3d: Confidence Intervals for Diagram 3d: Billing Method, Services Ordered by Connected
Doctors

                                                                                                                                  95-Percent Confidence
  Service Characteristic                                                              Point Estimate            Sample Size                     Interval

  Global bill                                                                                         66.5%             141                   58.3%–74.8%

      Reassigned                                                                                      60.3%             141                   51.7%–68.8%

            Within group                                                                              52.2%             141                   43.4%–60.9%

            Outside group                                                                             8.1%              141                   3.3%–12.8%

      Biller UPIN same as Payee UPIN                                                                  6.3%              141                   2.1%–10.5%




  TC bill                                                                                             33.5%             141                   25.2%–41.7%

      Reassigned                                                                                      27.1%             141                   19.3%–34.9%

            Within group                                                                              24.7%             141                   17.1%–32.3%

            Outside group                                                                             2.4%              141                    0.8%–7.2%*

      Biller UPIN same as Payee UPIN                                                                  6.4%              141                   2.1%–10.6%

* Confidence interval calculated using the logit transformation because of poor coverage properties of the standard approximation method when a small
number of sample elements possess the characteristic of interest.




Table 3e: Confidence Intervals for Diagram 3e: Billing Method, Services Ordered by All Other
Doctors

                                                                                                                                  95-Percent Confidence
  Service Characteristic                                                              Point Estimate            Sample Size                     Interval

  Global bill                                                                                         86.0%             456                   82.5%–89.5%

      Reassigned                                                                                      58.6%             456                   53.6%–63.6%

            Within group                                                                              50.0%             456                   45.0%–55.1%

            Outside group                                                                             8.6%              456                   5.7%–11.4%

      Biller UPIN same as Payee UPIN                                                                  27.4%             456                   22.9%–31.9%




  TC bill                                                                                             14.0%             456                   10.5%–17.5%

      Reassigned                                                                                      5.7%              456                    3.3%–8.0%

            Within group                                                                              4.3%              456                    2.3%–6.4%

            Outside group                                                                             1.3%              456                    0.6%–3.2%*

      Biller UPIN same as Payee UPIN                                                                  8.4%              456                   5.6%–11.2%

* Confidence interval calculated using the logit transformation because of poor coverage properties of the standard approximation method when a small
number of sample elements possess the characteristic of interest.

         OEI-01-06-00261              P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS                 49
     A    P    P E N D              I X ~              B             




Table 4a: Confidence Intervals for Diagram 4a: Provider Relationships, All Services

                                                                                                                                  95-Percent Confidence
  Service Characteristic                                                               Point Estimate            Sample Size                    Interval

  Referring physician connected to Performer                                                          17.9%              590                  14.6%–21.3%

      Performer connected to Biller                                                                   15.1%              590                  12.0%–18.2%

          Biller connected to Payee                                                                   15.1%              589                  12.0%–18.3%

          Biller not connected to Payee                                                                0.0%              589                          n/a

      Performer not connected to Biller                                                                2.8%              590                   1.4%–4.3%

          Biller connected to Payee                                                                    1.2%              589                   0.6%–2.7%*

          Biller not connected to Payee                                                                1.6%              589                   0.8%–3.2%*




  Referring physician not connected to Performer                                                      82.1%              590                  78.7%–85.4%

      Performer connected to Biller                                                                   65.4%              590                  61.3%–69.6%

          Biller connected to Payee                                                                   65.0%              589                  60.8%–69.2%

          Biller not connected to Payee                                                                0.6%              589                   0.2%–1.8%*

      Performer not connected to Biller                                                               16.6%              590                  13.3%–19.9%

          Biller connected to Payee                                                                    8.5%              589                  6.1%–11.0%

          Biller not connected to Payee                                                                7.9%              589                  5.6%–10.3%

* Confidence interval calculated using the logit transformation because of poor coverage properties of the standard approximation method when a small
number of sample elements possess the characteristic of interest.




         OEI-01-06-00261              P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS                 50
     A    P    P E N D              I X ~              B             



Table 4b: Confidence Intervals for Diagram 4b: Provider Relationships, Services Ordered by High
Users

                                                                                                                                  95-Percent Confidence
  Service Characteristic                                                               Point Estimate            Sample Size                    Interval

  Referring physician connected to Performer                                                          22.4%              196                  16.6%–28.3%

      Performer connected to Biller                                                                   19.4%              196                  13.8%–24.9%

          Biller connected to Payee                                                                   19.5%              195                  13.9%–25.1%

          Biller not connected to Payee                                                                0.0%              195                   0.0%–1.9%

      Performer not connected to Biller                                                                3.1%              196                   1.1%–6.5%*

          Biller connected to Payee                                                                    1.0%              195                   0.1%–3.7%*

          Biller not connected to Payee                                                                2.1%              195                   0.6%–5.2%*




  Referring physician not connected to Performer                                                      77.6%              196                  71.7%–83.4%

      Performer connected to Biller                                                                   61.2%              196                  54.4%–68.1%

          Biller connected to Payee                                                                   60.0%              195                  53.1%–66.9%

          Biller not connected to Payee                                                                1.5%              195                   0.3%–4.4%*

      Performer not connected to Biller                                                               16.3%              196                  11.1%–21.5%

          Biller connected to Payee                                                                    9.2%              195                  5.1%–13.3%

          Biller not connected to Payee                                                                6.7%              195                  3.1%–10.2%

* Confidence interval calculated with an exact method based on the binomial distribution because of poor coverage properties of the standard
approximation method when a small number of sample elements possess the characteristic of interest.




         OEI-01-06-00261              P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS                 51
     A    P    P E N D              I X ~              B             



Table 4c: Confidence Intervals for Diagram 4c: Provider Relationships, Services Ordered by All
Other Users

                                                                                                                                  95-Percent Confidence
  Service Characteristic                                                               Point Estimate            Sample Size                    Interval

  Referring physician connected to Performer                                                          15.1%              394                  11.1%–19.2%

      Performer connected to Biller                                                                   12.4%              394                   8.7%–16.2%

          Biller connected to Payee                                                                   12.4%              394                   8.7%–16.2%

          Biller not connected to Payee                                                                0.0%              394                           n/a

      Performer not connected to Biller                                                                2.7%              394                    1.4%–5.3%*

          Biller connected to Payee                                                                    1.3%              394                    0.5%–3.5%*

          Biller not connected to Payee                                                                1.3%              394                    0.5%–3.5%*




  Referring physician not connected to Performer                                                      84.9%              394                  80.8%–88.9%

      Performer connected to Biller                                                                   68.1%              394                  62.8%–73.3%

          Biller connected to Payee                                                                   68.1%              394                  62.8%–73.3%

          Biller not connected to Payee                                                               0.01%              394                  0.002%–0.1%*

      Performer not connected to Biller                                                               16.8%              394                  12.6%–21.0%

          Biller connected to Payee                                                                    8.1%              394                   5.0%–11.1%

          Biller not connected to Payee                                                                8.7%              394                   5.6%–11.9%

* Confidence interval calculated using the logit transformation because of poor coverage properties of the standard approximation method when a small
number of sample elements possess the characteristic of interest.




         OEI-01-06-00261              P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS                  52
     A    P    P E N D              I X ~              B             



Table 4d: Confidence Intervals for Diagram 4d: Provider Relationships, Services Ordered by
Connected Doctors

                                                                                                                                  95-Percent Confidence
  Service Characteristic                                                               Point Estimate            Sample Size                    Interval

  Referring physician connected to Performer                                                          72.0%              140                  64.1%–79.8%

      Performer connected to Biller                                                                   60.6%              140                  52.0%–69.2%

          Biller connected to Payee                                                                   60.6%              140                  52.0%–69.2%

          Biller not connected to Payee                                                                0.0%              140                          n/a

      Performer not connected to Biller                                                               11.4%              140                  5.8%–16.9%

          Biller connected to Payee                                                                    4.9%              140                   1.1%–8.7%

          Biller not connected to Payee                                                                6.5%              140                  2.1%–10.8%




  Referring physician not connected to Performer                                                      28.0%              140                  20.2%–35.9%

      Performer connected to Biller                                                                   15.2%              140                  8.9%–21.4%

          Biller connected to Payee                                                                   14.4%              140                  8.3%–20.5%

          Biller not connected to Payee                                                                0.8%              140                   0.1%–5.4%*

      Performer not connected to Biller                                                               12.9%              140                  7.0%–18.7%

          Biller connected to Payee                                                                    9.6%              140                  4.4%–14.7%

          Biller not connected to Payee                                                                3.3%              140                   1.3%–8.4%*

* Confidence interval calculated using the logit transformation because of poor coverage properties of the standard approximation method when a small
number of sample elements possess the characteristic of interest.




         OEI-01-06-00261              P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS                 53
     A    P P E N D                 I X ~              B             



Table 4e: Confidence Intervals for Diagram 4e: Provider Relationships, Services Ordered by All
Other Doctors

                                                                                                                                  95-Percent Confidence
  Service Characteristic                                                               Point Estimate            Sample Size                    Interval

  Referring physician not connected to Performer

      Performer connected to Biller                                                                   82.1%              450                  78.3%–86.0%

          Biller connected to Payee                                                                   81.8%              449                  77.9%–85.7%

          Biller not connected to Payee                                                                0.5%              449                   0.1%–2.1%*

      Performer not connected to Biller                                                               17.9%              450                  14.0%–21.8%

          Biller connected to Payee                                                                    8.2%              449                  5.4%–10.9%

          Biller not connected to Payee                                                                9.5%              449                  6.5%–12.5%

* Confidence interval calculated using the logit transformation because of poor coverage properties of the standard approximation method when a small
number of sample elements possess the characteristic of interest.




         OEI-01-06-00261              P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS                 54
         A    P   P E N D            I X ~             C
      Δ           A P P E N D I X ~ C

                                                                           Statistical Tables

Table 1: Confidence Intervals

                                                                                                                       Point           Sample           95-Percent
 Findings                                                                                                           Estimate             Size   Confidence Interval
 Findings on Services Overall

   Percentage of services performed by payee                                                                           85.3%              590        82.1% - 88.4%
   Percentage of services performed by independent diagnostic testing facility (IDTF),
                                                                                                                       88.0%              542        85.0% - 91.0%
   multispecialty group, or diagnostic radiology
   Percentage of services not performed by payee                                                                       14.7%              590        11.6% - 17.9%

   Percentage of reassigned services with payment reassigned within group                                              85.7%              417        82.0% - 89.3%

   Percentage of reassigned services with payment reassigned outside group                                             14.3%              417        10.7% - 18.0%

 Findings on Connected Services

   Percentage of services that were connected services                                                                 24.8%              598        21.1% - 28.5%

   Percentage of connected services ordered by high users of magnetic resonance (MR)                                   54.7%              141        47.2% - 62.3%

   Percentage of services that were not connected ordered by high users of MR                                          33.3%              457        30.7% - 35.9%

   Percentage of connected services ordered by orthopedic surgery                                                      27.8%              141        20.0% - 35.6%

   Percentage of services that were not connected ordered by orthopedic surgery                                        14.6%              456        11.0% - 18.2%

   Table 4

   Percentage of connected services performed by multispecialty group                                                  49.6%              125        40.3% - 58.9%

   Percentage of services that were not connected performed by multispecialty group                                    25.7%              417        21.0% - 30.3%

   Percentage of connected services performed by IDTF                                                                  13.4%              125         7.1% - 19.7%

   Percentage of services that were not connected performed by IDTF                                                    39.3%              417        34.1% - 44.5%

   Percentage of connected services performed by diagnostic radiology                                                   7.2%              125         2.4% - 12.0%

   Percentage of services that were not connected performed by diagnostic radiology                                    28.8%              417        24.0% - 33.6%

   Percentage of connected services performed by all other specialties                                                 29.8%              125        21.3% - 38.3%

   Percentage of services that were not connected performed by all other specialties                                    6.2%              417          3.7% - 8.8%

   Table 5

   Percentage of connected services paid to multispecialty group                                                       50.8%              140        42.0% - 59.6%

   Percentage of services that were not connected paid to multispecialty group                                         26.4%              454        21.9% - 30.8%

   Percentage of connected services paid to IDTF                                                                       11.2%              140         5.7% - 16.7%

   Percentage of services that were not connected paid to IDTF                                                         37.8%              454        32.9% - 42.7%

   Percentage of connected services paid to diagnostic radiology                                                        7.3%              140         2.8% - 11.9%

   Percentage of services that were not connected paid to diagnostic radiology                                         31.0%              454        26.3% - 35.6%

   Percentage of connected services paid to all other specialties                                                      30.7%              140        22.5% - 38.8%

   Percentage of services that were not connected paid to all other specialties                                         4.9%              454          2.7% - 7.1%

   Chart 1

   Percentage of connected services billed as technical component only                                                 33.4%              141        25.2% - 41.7%

   Percentage of services that were not connected billed as technical component only                                   14.0%              457        10.5% - 17.5%

   Percentage of connected services with payment reassigned                                                            87.4%              141        81.6% - 93.2%

   Percentage of services that were not connected with payment reassigned                                              64.3%              456        59.4% - 69.1%

   Percentage of connected services billed through a provider other than a radiologist                                 63.2%              141        54.8% - 71.6%
   Percentage of services that were not connected billed through a provider other than a
                                                                                                                       37.8%              457        32.9% - 42.7%
   radiologist

             OEI-01-06-00261          P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS             55
    A      P   P E N D             I X ~              C             




Table 2: Chi-Square Tests for Connected Magnetic Resonance Services


                                                                                                                                                  P value
 Findings                                                                                                                   Point Estimate     chi-square



 Findings on Connected Services

   Percentage of connected services ordered by high users of MR                                                                        54.7%

   Percentage of all other services ordered by high users of MR                                                                        33.3%      < .0001

   Percentage of connected services ordered by orthopedic surgery                                                                      27.8%

   Percentage of all other services ordered by orthopedic surgery                                                                      14.6%       .0008




 Table 4

   Percentage of connected services performed by multispecialty group                                                                  49.6%

   Percentage of all other services performed by multispecialty group                                                                  25.7%      <.0001

   Percentage of connected services performed by IDTF                                                                                  13.4%

   Percentage of all other services performed by IDTF                                                                                  39.3%      <.0001

   Percentage of connected services performed by diagnostic radiology                                                                   7.2%

   Percentage of all other services performed by diagnostic radiology                                                                  28.8%      <.0001

   Percentage of connected services performed by all other specialties                                                                 29.8%

   Percentage of all other services performed by all other specialties                                                                  6.2%      <.0001




 Table 5

   Percentage of connected services paid to multispecialty group                                                                       50.8%

   Percentage of all other services paid to multispecialty group                                                                       26.4%      <.0001

   Percentage of connected services paid to IDTF                                                                                       11.2%

   Percentage of all other services paid to IDTF                                                                                       37.8%      <.0001

   Percentage of connected services paid to diagnostic radiology                                                                        7.3%

   Percentage of all other services paid to diagnostic radiology                                                                       31.0%      <.0001

   Percentage of connected services paid to all other specialties                                                                      30.7%

   Percentage of all other services paid to all other specialties                                                                       4.9%      <.0001




 Chart 1

   Percentage of connected services billed as technical component only                                                                 33.4%

   Percentage of all other services billed as technical component only                                                                 14.0%      <.0001

   Percentage of connected services with payment reassigned                                                                            87.4%

   Percentage of all other services with payment reassigned                                                                            64.3%      <.0001

   Percentage of connected services billed through provider other than radiologist                                                     63.2%

   Percentage of all other services billed through provider other than radiologist                                                     37.8%      <.0001

           OEI-01-06-00261           P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS             56
Δ   A P P E N D I X ~ D

                                             Agency Comments




OEI-01-06-00261   P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   57
A   P   P E N D       I X ~            D             





    OEI-01-06-00261   P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   58
A
B   P
    A P
      N EN NE DR I X2 N ~D                         AP A G E
Δ       A AC CK KN NO OW WL LE ED DG GM ME EN NT TS S


                      This report was prepared under the direction of Joyce M. Greenleaf,
                      Regional Inspector General for Evaluation and Inspections in the
                      Boston regional office, and Russell W. Hereford, Deputy Regional
                      Inspector General.

                      Kenneth R. Price served as the team leader for this study. Other
                      principal Office of Evaluation and Inspections staff from the Boston
                      regional office who contributed include Amanda L. Pyles, Rosemary C.
                      Borck, and Rose C. Lichtenstein; central office staff include Kevin
                      Farber and Doris Jackson.




    OEI-01-06-00261   P R O V I D E R R E L AT I O N S H I P S   AND THE   USE   OF   MAGNETIC RESONANCE UNDER   THE   MPFS   59
